<html>
<title> - OPPORTUNITIES FOR YOUTH AND YOUNG ADULTS TO BREAK THE CYCLE OF POVERTY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                   OPPORTUNITIES FOR YOUTH AND YOUNG
                  ADULTS TO BREAK THE CYCLE OF POVERTY

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2017

                               __________

                          Serial No. 115-HR03

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


                  U.S. GOVERNMENT PUBLISHING OFFICE                    
33-391                  WASHINGTON : 2019                     
          





                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
DEVIN NUNES, California              SANDER M. LEVIN, Michigan
PATRICK J. TIBERI, Ohio              JOHN LEWIS, Georgia
DAVID G. REICHERT, Washington        LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
LYNN JENKINS, Kansas                 RON KIND, Wisconsin
ERIK PAULSEN, Minnesota              BILL PASCRELL, JR., New Jersey
KENNY MARCHANT, Texas                JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee               DANNY DAVIS, Illinois
TOM REED, New York                   LINDA SANCHEZ, California
MIKE KELLY, Pennsylvania             BRIAN HIGGINS, New York
JIM RENACCI, Ohio                    TERRI SEWELL, Alabama
PAT MEEHAN, Pennsylvania             SUZAN DELBENE, Washington
KRISTI NOEM, South Dakota            JUDY CHU, California
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
TOM RICE, South Carolina
DAVID SCHWEIKERT, Arizona
JACKIE WALORSKI, Indiana
CARLOS CURBELO, Florida
MIKE BISHOP, Michigan

                     David Stewart, Staff Director

                 Brandon Casey, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                    ADRIAN SMITH, Nebraska, Chairman

JASON SMITH, Missouri                DANNY DAVIS, Illinois
JACKIE WALORSKI, Indiana             LLOYD DOGGETT, Texas
CARLOS CURBELO, Florida              TERRI SEWELL, Alabama
MIKE BISHOP, Michigan                JUDY CHU, California
DAVID G. REICHERT, Washington
TOM REED, New York


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of May 17, 2017, announcing the hearing.................     2

                               WITNESSES

Gerald Chertavian, Founder and Chief Executive Officer, Year Up..     6
Jameela Roland, Graduate, Year Up................................    18
Martrice Manuel, Senior Program Director, Youth Scholars, Skills, 
  and Services...................................................    24
Cheryl A. Oldham, Vice President of Education Policy, U.S. 
  Chamber of Commerce............................................    34

                       SUBMISSIONS FOR THE RECORD

Fostering Success Michigan (FSM) Policy Action Network...........    60
Work Opportunity Tax Credit (WOTC) Coalition.....................    63
Michael G. Bindner...............................................    72
Jennifer M. Geiger, Ph.D., MSW...................................    76
John Paul Horn, LMSW.............................................    78
Nebraska Children and Families Foundation Connected Youth 
  Initiative (CYI)...............................................    82
School of Social Service Administration, University of Chicago...    92
Starbucks........................................................    94
Sylvia Sensiper, MA, Ph.D........................................    97

 
                   OPPORTUNITIES FOR YOUTH AND YOUNG
                  ADULTS TO BREAK THE CYCLE OF POVERTY
                              ----------                              


                        WEDNESDAY, MAY 17, 2017

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
Room 2020, Rayburn House Office Building, Hon. Adrian Smith 
[Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]

                                 ADVISORY

                  FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE
Wednesday, May 17, 2017
HR-03

                Chairman Smith Announces Human Resources

               Subcommittee Hearing on Opportunities for

                  Youth and Young Adults to Break the

                            Cycle of Poverty

    House Ways and Means Human Resources Subcommittee Chairman Adrian 
Smith (R-NE), announced today that the Subcommittee will hold a hearing 
entitled ``Opportunities for Youth and Young Adults to Break the Cycle 
of Poverty'' on Wednesday, May 17, at 10:00 a.m. in room 2020 of the 
Rayburn House Office Building. This hearing will highlight innovative 
approaches to helping vulnerable youth transition into adulthood and 
move up the economic ladder.
      
    In view of the limited time to hear witnesses, oral testimony at 
this hearing will be from invited witnesses only. However, any 
individual or organization may submit a written statement for 
consideration by the Committee and for inclusion in the printed record 
of the hearing.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
written comments for the hearing record must follow the appropriate 
link on the hearing page of the Committee website and complete the 
informational forms. From the Committee homepage, http://
waysandmeans.house.gov, select ``Hearings.'' Select the hearing for 
which you would like to make a submission, and click on the link 
entitled, ``Click here to provide a submission for the record.'' Once 
you have followed the online instructions, submit all requested 
information. ATTACH your submission as a Word document, in compliance 
with the formatting requirements listed below, by the close of business 
on Wednesday, May 31, 2017. For questions, or if you encounter 
technical problems, please call (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any materials submitted for the printed record, 
and any written comments in response to a request for written comments 
must conform to the guidelines listed below. Any submission not in 
compliance with these guidelines will not be printed, but will be 
maintained in the Committee files for review and use by the Committee.
      
    All submissions and supplementary materials must be submitted in a 
single document via email, provided in Word format and must not exceed 
a total of 10 pages. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    All submissions must include a list of all clients, persons and/or 
organizations on whose behalf the witness appears. The name, company, 
address, telephone, and fax numbers of each witness must be included in 
the body of the email. Please exclude any personal identifiable 
information in the attached submission.

    Failure to follow the formatting requirements may result in the 
exclusion of a submission. All submissions for the record are final.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available at
    http://www.waysandmeans.house.gov/

                                 
    Chairman SMITH. The Subcommittee will come to order.
    Good morning, and welcome to today's hearing on 
opportunities for youth and young adults in seeking to break 
the cycle of poverty.
    There is an alarming trend happening in this country--one 
in seven 16- to 24-year-olds in the U.S. are not in school and 
are not working. This totals more than 5.5 million youth 
Nationwide. Most concerning, these young people are not 
entering the workforce at a time when the national unemployment 
rate is now 4.4 percent, and the economy is making some 
progress.
    By failing to get started in the workforce when we know 
jobs are available, these young people are putting themselves 
at a disadvantage from the get-go. Workers who do not graduate 
from high school face higher rates of unemployment, regardless 
of economic conditions, dwindling job prospects, and lower 
lifetime earnings.
    We also know unemployment disproportionately affects 
minorities who account for some of our country's fastest-
growing population. Without gainful employment and the ability 
to build a career, the consequences are dire for these young 
people and their families. Many will have significant 
difficulties gaining the skills and knowledge to attain self-
sufficiency, putting them and their children at risk of falling 
into a life of poverty and the need for long-term government 
support.
    The risks of not addressing this trend are also critical 
for American businesses, which have millions of job openings 
but are unable to find skilled and talented employees to hire. 
Our economy cannot grow if it cannot rely on American workers 
to produce.
    While this Subcommittee works day in and day out to help 
people move from welfare to work, we often focus on the adults 
already within the system receiving benefits from programs like 
Temporary Assistance for Needy Families or Unemployment 
Insurance. But what if we focused on what works in helping 
young people before they ever have to set foot into an 
unemployment or welfare office?
    While there are dozens of major Federal programs dedicated 
to helping these youth, from job training and education to 
social services and juvenile justice, we have not seen major 
improvements in desired outcomes such as program completion, 
improved wages, or increased self-sufficiency.
    Sometimes it is because the government-directed solution 
does not address the strengths of the participants. For youth 
who struggled in high school, dropping them on the doorstep of 
a 4-year university may not be the best solution.
    The Government Accountability Office has written multiple 
reports on these programs, identifying duplication, poor 
employment outcomes and educational attainment, and lack of 
coordination for youth seeking these services. Today the GAO is 
releasing yet another report detailing very low participation 
in the numerous work incentive programs offered to young adults 
transitioning off the Supplemental Security Income, or SSI, 
program.
    Less than 1\1/2\ percent of SSI youth participate in the 
largest of SSA's work incentive programs, the student earned 
income exclusion, which permits children receiving SSI to 
attempt work without being concerned about their eligibility 
status or benefit amount.
    In addition, few, if any, youth on SSI receive vocational 
training and education services offered by the Department of 
Education, despite recent changes to the law requiring them to 
focus on this population.
    This is why we are here today--to discuss innovative 
programs and partnerships which are addressing this trend and 
providing young people transitioning into adulthood with the 
necessary skills and support to find work and climb the 
economic ladder.
    One such example is The HUB located in Lincoln, Nebraska, 
which provides a central access point for young adults. The HUB 
assists 16- to 24-year-olds, often without a high school 
diploma, transitioning into adulthood who are disconnected from 
their family and their community. It provides a 16-week hands-
on program known as Project HIRE, which addresses potential 
barriers to employment and gives youth the problem-solving 
skills needed to address situations as they arise. The HUB then 
helps these young people attain employment and provides support 
along the way to ensure success.
    We know the best way to reduce poverty is through work and 
work-related experiences, such as on-the-job training and 
employer-sponsored internships and apprenticeships. These 
experiences not only provide occupation skills training for 
available jobs, but they also help in growing an individual's 
network, improve soft skills, and build resumes.
    Instead of counting 5.5 million young people out, our focus 
needs to be on innovative approaches, which help these 
opportunity youth find private sector employment and career 
development.
    Today I am excited to learn from our witnesses about how 
their evidence-based practices, which focus on results, 
highlight how the private sector can help in leading these 
efforts and provide a roadmap to improving young people's 
outlook on the future.
    I now yield to the distinguished Ranking Member, Mr. Davis, 
for the purposes of an opening statement.
    Mr. DAVIS. Thank you very much, Mr. Chairman, and I, too, 
want to thank all of our witnesses for coming to share with us 
this morning.
    Across America, nearly 5 million young people are 
disconnected, not working, and not in school. In my 
congressional district in Chicago, almost 17,000 young people, 
17 percent of youth between ages 16 and 24, are not working or 
going to school. The rate is even higher for young African 
American men.
    In 2014, nearly half of African American men between the 
ages of 20 and 24 in Chicago were disconnected from both school 
and work. Just as in a rural district like Chairman Smith's, 
some of these young people are dealing with serious issues like 
disabilities, substance abuse, mental and physical health 
challenges, and caregiving responsibilities.
    But many others are struggling with less visible 
challenges--communities with fewer role models and fewer jobs, 
a lack of skills and a lack of confidence that they can acquire 
skills to get good jobs. Those youth that drift in the wind, if 
we don't catch them and anchor them to our communities and our 
economy, many of them will go from struggling youth into 
struggling adults, with higher unemployment rates, lower wages, 
and more physical and mental health problems.
    The problem is complicated, but some successful 
organizations, including some represented at our witness table 
today, are finding that the solution is difficult but simple. 
Reach out a hand to these youth, believe in them, and help them 
to believe in themselves. And, most importantly, stay with them 
and help them tackle all the challenges they are facing.
    The question for us today is, how can our Subcommittee 
support this good work? How can we empower our communities to 
do more of it?
    At least 17 States use a portion of their social services 
block grant funds for programs to serve at-risk youth. In my 
State of Illinois, the SSBG funds a significant investment in 
support for pregnant and parenting teens, as well as an at-risk 
youth program intended to keep young people out of the juvenile 
justice system.
    The social services block grant can be part of the 
solution. Our Committee has worked hard on a bipartisan basis 
to help children avoid foster care when possible, and to do 
better by those who do need to be in care. Older foster youth 
become disconnected at high rates, especially a year or two 
after their foster care ends.
    Our child welfare programs can be part of the solution, 
helping these young people build social capital they need to 
become successful adults. More than \1/4\ of parents served by 
the Temporary Assistance for Needy Families program, or TANF, 
are under age 25, and most of them are not engaged in school or 
work. Youth over age 20, who are considered adults by TANF, are 
especially struggling. Improvements to TANF can be a part of 
the solution.
    And, of course, at our most recent hearing, we heard about 
the impressive work evidence-based home visiting programs are 
doing to support teen parents. MIECHV is part of the solution.
    We have an opportunity to make a real difference for 
today's youth and tomorrow's adults. I look forward, Mr. 
Chairman, to working with you and our colleagues to find and 
explore opportunities to take action and support solutions that 
work.
    Again, I thank you very much for holding this hearing, and 
yield back the balance of my time.
    Chairman SMITH. Thank you. Without objection, other 
Members' opening statements will be made a part of the record.
    I certainly want to thank our witnesses, welcome our 
witnesses, and all those participating and observing here 
today. I'm grateful for your input and your offering of 
solutions.
    As we know, in Washington, too often it is real easy to 
cite what the problem is, and yet finding the right solutions 
and moving forward on those I think are certainly what we want 
to focus on, and I certainly appreciate your bringing your 
expertise here into the room today.
    I would like to welcome, again, our witnesses. We have Mr. 
Gerald Chertavian. Am I saying that right?
    Mr. CHERTAVIAN. You are.
    Chairman SMITH. You know, my last name being Smith, I am a 
little challenged by maybe sometimes even Jones.
    But we also have Ms.--Mr. Chertavian is founder and CEO of 
a program called Year Up, and we also have, as evidence perhaps 
of a successful program, a graduate of Year Up, Ms. Jameela 
Roland. Welcome. Thank you for being here.
    We also have Mr. Martrice Manuel, senior program director 
with Youth Scholars, Skills, and Services. And also Ms. Cheryl 
Oldham, vice president of education policy at the U.S. Chamber 
of Commerce.
    Witnesses are reminded to limit their oral statements to 5 
minutes. You will see the light there on the table there. Once 
it turns yellow, you want to bring that plane in for a landing, 
a safe landing of course, but we certainly appreciate your 
being here.
    We will begin with Mr. Chertavian. You may begin.

    STATEMENT OF GERALD CHERTAVIAN, FOUNDER AND CEO, YEAR UP

    Mr. CHERTAVIAN. Thank you, Chairman Smith, Ranking Member 
Davis, and all Members of this Committee, for your kind 
invitation to testify today. My name is Gerald Chertavian. I am 
the founder and CEO of Year Up, which is now the Nation's 
largest and fastest-growing youth-serving program started in 
this century.
    I would like to begin today by describing the talent crisis 
that is currently facing our country. Across America, as we 
have just heard, more than 5 million young adults called 
``opportunity youth'' are out of school and out of work, unable 
to find a path to self-sufficiency or a family-sustaining wage.
    This represents 1 out of 7 of all young adults and 1 out of 
5 young adults of color, and it costs our Nation $97 billion in 
lost revenues and increased social services. And, at the same 
time, we are projecting 12 million American jobs will go 
unfilled over the next decade, simply because employers can't 
find the skilled talent they need for the 21st century economy.
    This paradox is the result of a market failure. Our 
education and training systems are increasingly out of touch 
with employers' needs and out of reach for young people. 
Correcting this failure is both a moral imperative and an 
economic necessity.
    To give you a sense of what this opportunity looks like, 
this opportunity divide looks like, I would like to share with 
you a story of one of our graduates named Greg Walton. Ten 
years ago, Greg was sitting in the South Bay Correctional 
Facility in Boston. He was in the wrong place at the wrong time 
and was sentenced to a year in prison.
    Having grown up in foster care, without a stable home, you 
can imagine how limited Greg's opportunities were upon release 
from prison. But his story didn't end there. Today Greg is a 
technology executive at the Massachusetts Institute of 
Technology. He has worked there for the past 9 years and 
recently received the 2017 MIT excellence award, one of the 
highest honors awarded to staff at MIT.
    Greg is also a homeowner, a taxpayer, a loving husband, an 
extremely doting father of 2 beautiful children. I saw him 
recently and he told me--and this really stuck with me--he 
said, ``Gerald, I don't think you will ever understand how it 
feels to carry our children over the threshold of the home that 
we bought with our hard-earned money, and to tuck those 
children into a bed that they will never be without.''
    Now, Greg's story shouldn't be viewed as exceptional. It 
actually should be viewed as what is possible when we provide 
deserving young adults with a hand up, not a handout.
    Seventeen years ago, I sold my technology business to a 
public company and founded Year Up. The mission was simple: in 
1 year to move low-income young adults from poverty to a 
professional career. We serve that mission through the market.
    First, we work with leading employers like State Street, 
Microsoft, Bank of America. We understand what their needs are 
for entry-level skills.
    Second, we provide students with an intensive 6 months of 
training in both professional skills and technical skills, 
followed by a 6-month internship with those companies, at the 
end of which they are now prepared to work full-time. The 
results: 91 percent of our graduates are employed--are working 
or in school full-time within 4 months, making an average of 
$38,000 a year.
    Now, this is a demand-driven approach, and our partners now 
use our program as a source of reliable, relevant, and valuable 
talent across this country. State Street Corporation has hired 
500 of our young adults already and committed to hire another 
500; 1,000 low-income folks from the most isolated pockets of 
poverty in Boston in working and livable wage jobs. One 
company.
    Our program model has been proven through gold standard 
evaluation. In fact, the CEO of the firm that conducted our 
first randomized control trial said these were the most 
exciting evaluation results he has seen in youth employment in 
20 or 30 years, and the first to show a really substantial 
earning gain. We are committed at Year Up to rigorous 
evaluation because if we are not putting our young adults on a 
path to a W-2 that grows over time, we are not serving them 
well.
    Our program is successful because of several factors. We 
focus on outcomes, not efforts. So through our market 
mechanisms, we ensure employers' needs are met and young 
people's needs are met.
    Second, we use rigorous evaluation and are committed to 
constantly learning and pushing forward that learning.
    And, third, we believe that talent is distributed evenly in 
America while opportunity, unfortunately, is not. And we value 
those young adults as economic assets and not social 
liabilities.
    Ranking Member Davis, thank you for your continued support, 
for funding programs that train workers to meet local employer 
demand. We appreciate the Committee's work to update and align 
public assistance provisions in programs such as TANF, social 
service block grant, and foster care.
    I would like to commend the Committee's success last year 
in reporting out, passing in the House, the bipartisan SIPPRA 
Act. On behalf of Year Up, thanks for this opportunity. We 
greatly appreciate it.
    [The prepared statement of Mr. Chertavian follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

Chairman SMITH. Thank you, Mr. Chertavian.
    Ms. Roland, you may begin.

         STATEMENT OF JAMEELA ROLAND, GRADUATE, YEAR UP

    Ms. ROLAND. Chairman Smith, Ranking Member Davis----
    Chairman SMITH. Did that----
    Ms. ROLAND. It is green.
    Chairman SMITH [continuing]. Turn on? Okay.
    Ms. ROLAND. There you go. And Members of the Subcommittee 
on Human Resources, thank you for the opportunity to testify 
before your hearing on opportunities for youth and young adults 
to break the cycle of poverty.
    My name is Jameela Roland. In August of 2015, at age 24, I 
was homeless. For 2 months, my mother, my dog, and I bounced 
between relatives and motels. I was working full-time to 
support the three of us, and I had only one goal--survive--
because I knew that this trial will come to an end if held it 
together and stayed strong in my faith for a better future.
    Surviving, however, is vastly different from thriving. 
While both require a pulse, the difference is in the quality of 
life you experience. And while I have always known that 
survival is essential, after getting a taste of how bitter it 
can be, I wanted more than that. What I wanted was to thrive.
    I wanted survival to be a distant memory, no longer my goal 
for everyday life. I wanted the richness of life that comes 
when you have the security of employment in a career that 
encourages growth. I wanted my voice and my experiences to be a 
positive contribution to the world. This experience with 
homelessness was my wakeup call.
    I began looking for opportunities. I had heard of Year Up 
several years before, not long after I graduated high school 
and was filled with optimism and lofty aspirations. Back then, 
I immediately wrote it off, convinced that the only way I could 
succeed in life was by starting out with a college degree.
    Life was determined to teach me a lesson, and after 7 years 
out of high school and multiple failed attempts at higher 
education, I came to the realization that maybe the traditional 
college route wasn't for me. Through all of this, I worked, I 
lived, I failed, I grew. The one constant in my life was a 
hunger for something more.
    After the trials and tribulations of experiencing 
homelessness, I wanted to give up on school. I wasn't willing 
to risk the stability that I had just fought so hard to 
achieve. So my younger sister called me one evening almost 
exactly a year ago now to tell me about Year Up. I knew I had a 
lot to lose but even more to gain.
    As I started Year Up, I realized this program was like 
nothing I had ever seen before. From the beginning, the staff 
represented Year Up as more than a schooling opportunity. Year 
Up maintains a high expectations, high support environment. 
They took the time to get to know me and my goals and dreams, 
to laud my strength and bring focus to my growth areas. They 
gave guidance and advice and kept me focused when I was too 
tired to see straight.
    They taught me what it takes to navigate a corporate 
environment, and not just as an entry-level contributor, but as 
a young black woman moving into a realm dominated by older 
white men. All of this meant that I had to be there every day, 
on time and fully engaged.
    If I didn't hold up to my end of the agreement, I was held 
to the contract that all Year Up students sign. If I was 1 
minute late or missed an assignment, I would lose points and, 
more importantly, money from my stipend. I learned that nothing 
was given. Everything was earned through hard work and visible 
dedication.
    Year Up student services did their part to eliminate or 
minimize external obstacles, so that I could stay focused on 
the rigorous academic and professional development program. 
Attending classes Monday through Friday, I completed daily 
assignments, regularly collaborated with my classmates, and 
participated in weekly feedback sessions, teachable moments, 
that helped me grow as an individual and as a professional.
    I had one chance to take this opportunity and do what I 
hadn't: Thrive. Because Year Up had my back like no one else 
had before. And then they placed me at my internship at 
Microsoft. To many, that may not seem so big, but for me it 
meant so much. Before doing Year Up, I was earning minimum 
wage, and the huge opportunity that Microsoft represented was 
beyond exciting. They placed me with a team dedicated to 
helping me achieve my goals, to learning more every day, and to 
helping me get a sense of my own power.
    My mentors, Jim and Daniel, were the perfect Dr. Who's to 
my Martha Jones. And Al, my manager, noticed my potential and 
kept me inspired from across the pond. After my internship, I 
was immediately hired on as a vendor and was just recently 
hired on as a full-time employee as a business operations 
associate with Microsoft's IT showcase team, making more money 
than I really only dreamed of.
    And I haven't forgotten about getting a degree either. I 
will be taking classes at my own pace with a clear goal ahead 
of me.
    By telling my story today, I hope to inspire this Committee 
to understand that, given the right opportunities, more young 
adults can achieve more with their lives. And I hope to have 
inspired you to help close this opportunity divide in our 
country.
    Year Up provided me a hand up. In 1 year, I went from 
minimum wage and homeless to living comfortably above the 
poverty line. And now here I am in front of you no longer 
fighting to survive. I am a young, responsible, working woman 
with a fantastic new career trajectory in front of me that will 
allow me to achieve my fullest potential.
    One year ago, I joined Year Up and made the choice to learn 
to thrive. It was the best decision I have ever made. Thank 
you.
    [The prepared statement of Ms. Roland follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    

Chairman SMITH. Thank you very much. That is tremendous, 
and I am anxious to learn----
    [Applause.]
    Chairman SMITH [continuing]. Anxious to learn more as well. 
So thank you very much.
    Mr. Manuel, you are recognized.

 STATEMENT OF MARTRICE MANUEL, SENIOR PROGRAM DIRECTOR, YOUTH 
                 SCHOLARS, SKILLS, AND SERVICES

    Mr. MANUEL. Good morning, Chairman Smith, Ranking Member 
Davis, and all Members of the Subcommittee. My name is Martrice 
Manuel. I am the associate director of Alternative School 
Network. We operate within 22 alternative schools, community-
based schools I should say, throughout the city of Chicago. So 
we service about 2,500 youth on a yearly basis that have 
dropped out of school.
    So the things that we operate are in three areas. That is, 
education advocacy, policy, and employment. The reason that we 
do this, as Mr. Davis stated earlier, there are about 5 million 
youth, young adults, between the age of 16 and 24 across this 
country that are either out of work or have dropped out of 
school. So that is our mission--to help to reengage these 
youth.
    Some things to consider. A lot of these youth have--you 
know, there are different titles for them. They are either 
considered at risk, disconnected, or opportunity youth. Some of 
the characteristics of these youths are youth in poverty, low 
academic standing, single-parent homes, either missed or 
undiagnosed mental illness. And some of those mental illnesses 
are depression, anxiety, post-traumatic stress, and ADHD.
    Many of these youth come from disconnected neighborhoods, 
violence, poverty, low self-efficacy, poor academic 
population--I am sorry, poor academic preparation. And, 
disproportionately, these are youth of color.
    To get a better idea of the story that I am speaking of 
now, I will talk to you a bit about one of our teen moms. Her 
name is Tia. Tia was in high school. She was 15 years old and 
she became pregnant. Through some altercations within high 
school, and her pregnancy, she ended up dropping out of school. 
Tia wanted to go back to school, but Tia became--she needed to 
take care of her child.
    Tia was in the foster care system. She lived with her 
great-grandmother. She had--her parents had lost parental 
rights. Through that time, Tia became 17 years old. She was out 
of school for about 2 years. Tia knew that she wanted to do 
better, she wanted more for herself and her child, so Tia began 
to do some research, and she located one of our schools which 
is located on the west side of Chicago.
    Through that program, her case worker set up a meeting with 
her mentor. Tia came in that first semester. We are not here to 
say that we work miracles within a few weeks. She struggled 
that first semester. But through the consistent efforts and 
advocacy from her mentor, Tia began to turn it around. That 
mentor has provided guidance. That mentor has worked with--
collaborated with her great-grandmother, her case worker, 
bringing all parties together, so that Tia can be successful.
    From that, Tia currently is involved in an internship 
program because we like to combine both education and career 
readiness. So within the internship that Tia is able to 
participate in, she is able to gain experience in a career 
field that she chooses. We believe that if a youth is given 
opportunities, they are exposed to different things, then they 
are more likely to be successful and want to be productive 
citizens.
    Educating teens is difficult for even the best prepared 
schools, but not educating them is detrimental to the mom and 
the parent--I am sorry, and the child that she is bringing.
    So with that, we have a program, in collaboration with the 
Department of Children and Family Services, which we call YS3. 
That is the Youth Scholars, Skills, and Services program. 
Within that YS3 program, we assist them with mentoring, as I 
spoke of, career readiness.
    We also assist them with tutoring. We allow them the 
opportunity for credit recovery because many of these youth are 
below their credits needed for graduation. Out of our 22 
schools, 21 help the youth to obtain a high school diploma. We 
have one that focuses on GED.
    Our youth have shown great success in these programs. 
Within the YS3 program, we service about 200 youth in care a 
year. About 35 percent of those youth in care are teen parents.
    I would like to commend this Committee on the work that 
they are doing because the investment that is being provided to 
help to assist these youth has made a great impact on the city, 
and the youth. And so we don't believe in just reaching 
benchmarks; we want to save children's lives and change 
communities.
    So, with that said, we want to thank you.
    [The prepared statement of Mr. Manuel follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 
    Chairman SMITH. Thank you, Mr. Manuel.
    Ms. Oldham.

  STATEMENT OF CHERYL A. OLDHAM, VICE PRESIDENT OF EDUCATION 
                POLICY, U.S. CHAMBER OF COMMERCE

    Ms. OLDHAM. Good morning, Chairman Smith and Ranking Member 
Davis, and Members of the Subcommittee. My name is Cheryl 
Oldham. I am vice president of education policy at the U.S. 
Chamber of Commerce.
    The Chamber is the largest federation representing the 
interests of business in the country, 3 million businesses of 
all sizes, sectors, across the United States. And I really 
appreciate the invitation to be here with you today.
    You have heard already the numbers. You have talked a 
little bit about them yourselves. So I would like to focus my 
time this morning on the opportunity that we see to 
significantly improve the lives of millions of at-risk youth by 
developing and implementing innovative strategies that can 
provide the skills, support, and education necessary to break 
the cycle of poverty.
    In 2015, the U.S. Chamber Foundation released a report 
called Making Youth Employment Work: Essential Elements for a 
Successful Strategy. One organization highlighted in that 
report is Year Up, and I am so honored to be here today sitting 
with Gerald and Jameela. They are a remarkable example of how 
companies are successfully working to empower low-income young 
adults to move out of poverty through training, internships, 
and a professional career.
    Another example of employers working to provide 
opportunities for at-risk youth and adults and, in turn, 
benefitting from their skills, is the Hillside Work Scholarship 
Connection. Launched in the 1980s by Wegmans Food Markets to 
help at-risk youth finish high school, Hillside provides 
tutoring, mentoring, college preparation, and job readiness 
training to prepare young adults for jobs at Wegmans and 20 
other employer partners.
    Another is Quality Float Works. A small manufacturing 
company established a work-study program where students attend 
academic classes in the morning and work on the shop floor in 
the afternoon. They test their skills on approved equipment, 
assist with prep work, and explore different roles in the firm.
    Students receive school credit for participating in the 
program and benefit from coaching on soft skills and have the 
opportunity for high-paying careers in manufacturing. And, in 
turn, Quality Float Works has an opportunity to identify 
promising young talent that might have otherwise gone 
unnoticed.
    Building on the 2015 report, the Chamber Foundation 
launched a youth employment initiative that is supporting 
employers and business associations, championing scalable and 
sustainable solutions. In particular, this effort focuses on 
building the capacity for greater employer leadership and 
identifying promising practices for how the business community 
can more deliberately engage young people in an overall part of 
their talent strategy.
    We believe that in order to address the youth employment 
challenge of our time, we must activate the large network of 
business associations and other intermediaries that are well-
positioned to partner with employers. Our federation of State 
and local chambers is over 2,500 strong. Many of them regularly 
engage with their members on issues related to finding and 
retaining talent, as well as ensuring that education and 
workforce programs are aligned to business needs.
    The Denver Opportunity Youth Investment initiative, 
supported by the Denver Chamber of Commerce, is dedicated to 
improving educational and employment outcomes for youth. This 
initiative is focused on building connection points and 
pathways for young people, along with developing tools and 
resources for the business community and the many community-
based partners that work with opportunity youth.
    Another important network is community-based organizations 
that can better reach disconnected youth. One example is 
i.c.stars. As a technology training program for low-income 
young adults in Chicago, they leverage project-based learning 
to equip participants with not only the technical proficiencies 
but also the behaviors, values, and attitudes to be leaders in 
the workforce and their communities.
    With about 1,000 hours of hands-on experience, the 16-week 
core curriculum creates small teams of young adults to solve 
real-world business problems, allowing them to develop the 
critical foundational, professional skills employers need in 
the innovation economy. It is a good example of how alternative 
networks and ways of learning can make a big difference for 
opportunity youth.
    For our part, the U.S. Chamber remains committed to 
strengthening our Nation's education system. This is truly the 
single most important step to addressing poverty. In addition, 
we believe that more employers must become involved in 
initiatives to help at-risk youth and must understand how these 
initiatives can benefit both students and businesses alike.
    Through our vast network of businesses, as well as State 
and local chambers of commerce, we will continue to educate the 
business community on the opportunities effective youth 
employment strategies present.
    We encourage policymakers to consider how, through 
activating employer leadership and business associations as 
part of the solution, we can go a long way toward scaling up 
youth employment.
    Again, thank you for this opportunity to testify before you 
today. I welcome questions.
    [The prepared statement of Ms. Oldham follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman SMITH. Thank you very much to all of our 
witnesses, and, Ms. Oldham, thank you.
    Mr. Chertavian, in your written testimony, you discuss a 
commitment to rigorously evaluating what you are doing. You 
look for perhaps W-2s and an increasing nature, hopefully, of 
those W-2s for your participants. You also discuss how perhaps 
some of our institutions--be it educational or others--are 
really wanting to do the right thing, and yet are not really 
adequately preparing young adults for success in the labor 
market. And I am concerned that Congress oftentimes funds 
programs without looking at the evidence of success.
    So you recommend focusing on outcomes and results in your 
testimony. What measurements do you use to evaluate Year Up's 
success in helping the youth move out of poverty and up the 
economic ladder? And how frequently do you measure? And can you 
tell us more about what you do with that information and who 
might find it most useful?
    Mr. CHERTAVIAN. Sure. Thank you for the question, Chairman 
Smith. We are currently undergoing our third randomized control 
trial. The last two were funded by the Federal Government in 
one of the most significant investments this country has made 
in studying anti-poverty programs called the Pace initiative.
    Our goal is to prove and improve what we do every single 
day. We measure the increased earnings that our graduates are 
able to achieve over now a 3- to 5-year outcome versus a 
control group that was also admitted to the program but that 
was not served by the program. So you are looking very 
specifically at control groups versus those who are served. 
Measuring the delta of their earnings is your first major 
measure.
    We also measure postsecondary attainment, so how those 
young adults, now that they can feed their bellies, how do they 
continue to feed their brains, right? And those often have to 
be done concomitantly for folks in this country today. We will 
then look at other factors of how young adults are achieving, 
like wealth creation. Are you now buying homes? Are you 
investing in assets? It is not just income; it is actually 
achieving wealth over time. And so we are looking at those 
factors.
    We study the randomized control trials the most rigorous. 
We do assiduous surveys 1 year out, collect data on the 
students who have graduated a year ago. Every 5 years, we will 
do a complete sweep and go all the way back to 17 years ago and 
grab every single student we can. It tends to be through 
different mechanisms, like text and interesting ways to get 
that.
    That data absolutely drives every improvement we make, and 
we are dedicated each year to seeing how do we get better and 
smarter. And what we have learned I would humbly think over the 
past 17 years could be very applicable to a wider range of 
Federal programs that are looking to actually serving adults 
and move them out of poverty.
    So it is something that I would be more than happy, however 
helpful, to share anything and everything we have learned over 
17 years. We have now served 17,000 young people in 21 
locations across America, so we have learned a lot that we 
would be happy to pass on. And the data we have acquired, we 
will happily pass on that in ways that are effective.
    Our goal is not to grow our program; it is to help this 
country. So if this program called Year Up can help our 
country, that is our goal as a program is to ultimately be of 
assistance to the wider issue of those 5-plus million young 
people.
    Chairman SMITH. All right. And do you feel that the Federal 
Government, perhaps in the limited interactions you have with 
them on funding, on the funding front, what--I mean, do they 
express an interest in as much data as you might have? Or, 
obviously, you are very rigorous in going through all of that 
data and looking at outcomes. Has the Federal Government 
indicated an interest in all of that? Is there room for 
improvement?
    Mr. CHERTAVIAN. So what I have observed myself is there is 
an increased desire to look at evidence-based and increasingly 
outcomes-driven models. I think the outcomes-driven is in its 
ascendancy. Evidence-based we see increasing. Unfortunately, 
though, we still see a disconnect between who gets funded and 
how are those programs evaluated.
    So it seems programs in operation, new programs, may be 
being held to different standards, programs that have been 
funded for a while. So we receive almost no government money 
today because we don't fit often in the somewhat inflexible 
requirements of a program, yet we are the fastest-growing 
program in the country that serves low-income youth. So there 
is some disconnect there between how funding currently flows 
and, indeed, the evidence base is growing. That is for sure.
    Chairman SMITH. Okay. Well, in the interest of time, I have 
a lot more questions, but I might have to postpone those.
    But we will move on here. Mr. Davis, you are recognized for 
5 minutes.
    Mr. DAVIS. Thank you very much again, Mr. Chairman.
    Mr. Manuel, we know that foster youth are twice as likely 
to become teen parents as their peers, and we also know that 
they are much more likely to have more than one child before 
they are 19. What are the critical services that your 
organization provides that really help these young people 
decide that it is not time to have another child, and that 
there would be some impediment, in all likelihood, to their 
continuous progress?
    Mr. MANUEL. Thank you, Mr. Davis. Well, first of all, we 
obviously know that we are not the pregnancy police, but we do 
try to put things in place for those teen parents. First, we 
start off--I talked about earlier--about a mentor. That mentor 
meets with that youth daily. That mentor also helps to direct 
that youth to other teen parenting programs, sits with them, so 
that they can get background on financial literacy, what it 
means if they have another child.
    They also work with that particular teen parent involving 
them with group discussions, so that they can sit with other 
teen parents to learn about some of the issues that they face 
with having more than one particular child.
    The biggest thing, the most influential piece that I could 
say is just those youth having a role model to look up to. So 
when they have no particular individuals in their lives, then 
it helps to somewhat reduce the likelihood of them becoming 
pregnant again.
    Mr. DAVIS. Thank you. Thank you very much.
    Mr. Chertavian, I was interested in your story about Greg 
Walton, who went from a correctional facility into a program. 
But what really interested me is the fact that you were able to 
convince employers to take these individuals on, and in some 
instances even paid to be a part of the program. How do you get 
employers to really join in?
    Mr. CHERTAVIAN. So we appeal not only to employers' social 
responsibility, but perhaps, if not more importantly, their 
wallets. We know that a job that pays about $40,000 a year--and 
Excentra has done separate research on this--it is more cost 
effective for a company to work with Year Up to find entry-
level talent than to go to the street, hire 100 people, see if 
they work out; one out of two out of three doesn't.
    The cost of that, the cost of retraining, rehiring--so we 
can produce research in front of a company that says, ``You may 
not have seen these young adults as economic assets. We can 
prove to you--17,000 young people now--that this is not only a 
better but a more cost effective way to grow your workforce.'' 
Once they see that, it now becomes something they are coming to 
us for. So American Express said, ``We will now take 200 entry-
level Java developers from your organization, but we need you 
to open up in Phoenix and in Plantation, Florida.''
    So we move also to accommodate the need of industry, which 
means we have to be responsive to where the job demand is in 
this country. And I think that critical thing is you have to 
start with the employer and work backward. And many programs 
are starting not at that employer end, and, therefore, there is 
a disconnect between what the employer needs and what training 
is happening for the young person. If we could reverse that 
flow, boy, we could help this country.
    Mr. DAVIS. Thank you very much.
    And, quickly, Ms. Roland, you expressed glee when you were 
able to connect with this job that really paid enough money for 
you to feel like you were living well or decently on. We just 
had an experience with a young intern who managed to get a job 
paying $18 an hour for the rest of the summer with a utility 
company.
    Trying to prepare people for that, is there a way that we 
could be more helpful in terms of helping people get jobs that 
actually paid a livable wage?
    Ms. ROLAND. I think one of the things that help get young 
adults hired is networking, connecting them to people who are 
willing to help. That is one of the big things that Year Up 
taught us. Most jobs are gotten by knowing someone or knowing 
someone who knows someone. So if you know a young adult, if you 
know a good program, introducing them to it is definitely very 
helpful.
    Mr. DAVIS. Thank you very much, and I yield back Mr. 
Chairman.
    Chairman SMITH. Thank you.
    Mrs. Walorski.
    Mrs. WALORSKI. Thank you, Mr. Chairman. Thank you to all of 
you that are here today.
    Jameela, you rock. You just had an opportunity to tell our 
fellow Americans and the youth in this country that there is 
hope and determination. There is a way. You just did it. You 
just proved it. And what young person doesn't want to work at 
Microsoft? I mean, this is the best news that could be 
delivered, I think, to this country. It is from you. Because 
you have proven what we have all talked about up here, which is 
there is not one way fits all, all size--one size fits all. 
College is not for everybody right outside the door, you know?
    I so much appreciate your determination and the hunt that--
and the mission that you were on, and I think that, you know, 
for me, when I look at organizations like Year Up, I have an 
organization in my district as well, Goodwill of Northern 
Indiana, that has a program called Excel Center. And, you know, 
they are bringing on hands-on this and hands-on that, and 
offering, you know, business connections and setups and all 
those things, networking, like you said, as well.
    But I think it is so important for young people in this 
country to be able to talk about the fact that they can point 
to people who did this. And I think it is easy, and I think it 
is easy at the Federal Government level to say that government 
always has the answers, we always do this right, you know, all 
these models and plans never exhaust.
    And I think today the reason this is so important is to 
listen to all of you--but, Jameela, especially you--to be able 
to say that being able to fund innovative programs, and being 
able to allow innovation and research, and those kinds of 
things to happen in the private sector, to come along on the 
front lines and absolutely start showing new ways, new 
innovations, new paths to follow.
    And I think one of the things that you said is so 
important. You talked about--and it matches up with my Goodwill 
in Northern Indiana--they talk about career and college, not 
college and career. And I think when we kind of start breaking 
through that mind-set of setting people free, they don't have 
to go into that one mode and that one model.
    So in initiatives like the Excel Center in my district, 
Year Up that you are involved in, they are locally driven. They 
adapt to individuals. They help make that bridge out of 
poverty.
    But, Jameela, you mentioned that in the 7 years that you 
were trying to attend college, you couldn't find the support 
you needed to make it work. What specifically did Year Up do 
that colleges weren't going to provide? What was it that when 
you saw that and you thought, oh, my gosh, I just found the 
key, I am walking through the door, what is--what was it that 
they offered that you didn't see anywhere else?
    Ms. ROLAND. A stipend.
    Mrs. WALORSKI. Ah ha.
    [Laughter.]
    Ms. ROLAND. A stipend is so critical because during the 
program I had to work just to pay the bills. Even the stipend 
amount wasn't fully enough to take care of everything, but the 
fact that there was a stipend meant that I could reduce my work 
hours and focus on this program without having to, you know, 
work all night long and then come in the next day tired, not 
fully receiving everything.
    Mrs. WALORSKI. And let me ask you this. So I spent 2 years 
on another committee chairing a subcommittee on the bridge out 
of poverty, on nutrition, and it was on food stamps, and it was 
on all these different things. But we had 17 hearings listening 
to people all over the country talk about the bridge out of 
poverty.
    And the one thread that I saw in all of those hearings for 
2 years seems to be also buried in the success of yours. And 
can you speak to the fact of I guess one of the things that I 
saw was it is one thing to just be providing money maybe over 
here or normal, just traditional resources over here, without 
human interaction.
    Can you speak to, when you talked about accountability and 
all these classes, how much just having another human being, 
another person, not just being a number through the government, 
but the hands-on with people, how much of a role did that play?
    Ms. ROLAND. That was also--that is probably right under the 
stipend. It is so important, because every day I walked in I 
knew the staff knew my story, knew my situation, knew my 
circumstances, my challenges. And so when I needed help, and I 
reached out, I didn't have to retell my story every time, which 
can get extremely exhausting and very discouraging as well.
    So having someone who knows your story, who is willing to 
engage in you, who checks up on you, if you are going through 
something, it means a lot to know that they care about more 
than just their bottom line.
    Mrs. WALORSKI. Right. And then what kind of--what was going 
on with your family? So as you are going through this process, 
and you are interning, and you are happy, and you are working, 
and you are doing all of these classes, that stipend is coming 
in, things are a little bit better, I am sure your self-
confidence was building, you felt more secure, so what was 
happening with the interaction around other groups of people, 
your friends and your family, as they were watching this 
transformation? What did your friends say?
    Ms. ROLAND. I honestly didn't have much interaction with my 
friends at the time because I was----
    Mrs. WALORSKI. You were so busy?
    Ms. ROLAND [continuing]. Pretty busy. I was really busy. 
But everyone--every time I gave updates on--oh, cool, 
internship at Microsoft--everyone was so excited and 
supportive. My family was so excited and supportive. Yeah, I 
don't know if you read my testimony, but my sister, she cries 
about everything because she is always super excited. And so I 
had a lot of support from--on a personal level.
    Mrs. WALORSKI. That is awesome. Well, lady, you rock. And I 
am excited for our fellow Americans and for young people to 
know that there is hope and to keep moving and that one size 
doesn't fit all and to keep pushing for those individual things 
that mean a lot to those individuals.
    Thanks for being here today to all of you. I very much 
appreciate it.
    Thanks, Mr. Chairman. I yield back.
    Chairman SMITH. Thank you. And, you know, the more 
successful you are at Microsoft, maybe Apple will be knocking 
on your door as well.
    [Laughter.]
    Or a number of other brands. So with that, next up is Ms. 
Sewell.
    Ms. SEWELL. Thank you, Mr. Chairman. Let me echo my--the 
other colleagues who are just so excited for you, Jameela, for 
your success, and Year Up sounds like a wonderful program.
    Look, I represent rural Alabama--Selma, Alabama--where 
everybody knows about the bridge, but it is a town of 19,000 
and it is dying on the vine. My question is: How can we scale 
programs like Year Up to help rural America? Especially when 
you have--you don't have a Microsoft located in your community, 
and yet we still have disconnected youth.
    In fact, in my district, between the ages of, you know, 16 
and 24, the sort of disconnected youth age, 15.9 percent are 
disconnected, meaning they are not employed. And so what are we 
doing to help scale programs like yours or the program that you 
suggested, Mr. Manuel? I think you said it was Y2--Y3?
    Mr. MANUEL. Y3.
    Ms. SEWELL. Yes. How do we scale up programs like that, so 
that they are accessible and tailored? Because we know one size 
doesn't fit all.
    Mr. CHERTAVIAN. That is correct.
    Ms. SEWELL. Tailored for rural parts of America.
    Mr. CHERTAVIAN. That is right. In fact, I was just on the 
phone with folks from Birmingham, Alabama, talking very 
similarly. I think what is most important to understand is the 
principles that will drive the outcomes, in many cases. So if 
this only works if an employer says, ``I need talent,'' now 
that talent doesn't have to be we work in technology and 
finance and I would call middle-skill white collar jobs.
    But this applies to any job today that requires honestly 
more than a high school degree, which is the vast majority of 
jobs in this country. So I think if one says, ``How do I scale 
it?'' I have to see what jobs do exist. It could be 
hospitality, they could be logistics, right? A range of jobs. 
But I can promise you those employers want the exact same thing 
Microsoft does.
    So if we start with what incentives will get programs, not 
just Year Up, to actually do the right thing, Darwin will 
ultimately take over. Programs that succeed will get more 
funding. Those that aren't able to get that outcome, a W-2 that 
grows over time, will get less funding. So rather than choosing 
winners and losers, let's set the incentive systems based on 
principles we know work in youth development and youth 
workforce development.
    In that context, it will apply to a rural, it will apply to 
an urban setting. We have looked at that through Year Up. One 
has to understand what jobs are available, but it is not just 
the Microsoft. There are many, many other jobs that would be 
the perfect first job for a young person, but we are not 
producing folks who are employable. Attitudinal, behavioral, 
communication skills, that is what employers most want.
    If you provide that, and you have a willing learner, they 
will take it from there. And so I think that is what we are 
often missing is we are not asking folks to really make sure 
folks are employable and holding them accountable for that 
outcome and paying them on the result of that outcome. The 
principles will work, rural and urban.
    Ms. SEWELL. You know, the other thing I think it is really 
important that this Committee focuses on, you know, we have 
jurisdiction over wraparound services that are important to 
give a hand up to folks like yourself, Ms. Roland. So can you 
talk a little bit about some of those wraparound services that 
the Federal Government offers while, you know, you are getting 
an opportunity from a private partnership that is done through 
Year Up?
    I would assume that you needed healthcare. I am assuming 
that you needed other sorts of social service programs that we 
have within our jurisdiction. Can you talk a little bit about 
how we can, public and private, work to support disconnected 
youth?
    Ms. ROLAND. Can you define ``wraparound services''?
    Ms. SEWELL. Sure. Healthcare. While you were--for that 1 
year, who provided you with healthcare services for that 1 
year? Or did you not have it?
    Ms. ROLAND. I had healthcare. I had healthcare through the 
Affordable Healthcare--the Affordable Care Act.
    Ms. SEWELL. Okay. And so talk to us about whether or not it 
was affordable for you. You know, I just really want--that is a 
wraparound service, right? So, yes, this program provided you 
with training, which is great, and a job opportunity. But we 
also do programs that are like social service block grant 
programs, we do TANF, Temporary Assistance for Needy Families.
    Those are the kinds of Federal programs that we have 
jurisdiction over. And I am always interested in seeing how, 
working in tandem, private and public can uplift and undergirth 
disconnected youth, such as yourself.
    Ms. ROLAND. Yeah. So I was the recipient of benefits. I had 
healthcare, I had food stamps, and it really took a lot of 
stress off of me, knowing that those were taken care of, that I 
didn't have to shell money out of pocket that I really didn't 
have. I know healthcare can be really expensive, too, and 
knowing that if I did get sick, I could go to the doctor and it 
won't, like, put me in a financial bind, was critical.
    Ms. SEWELL. And I think that what your success story really 
illustrates to all of us is that, you know, those programs are 
not about trying to breed dependency. Rather, they are programs 
that can help undergirth, and working with private, give you 
the hand up that you need in order to be the success that you 
are today.
    So I want to thank you for being so brave to come and talk 
to us about your success, and just want to remind the Committee 
of how important what we do is as well in undergirthing 
disconnected youth. Thanks.
    Ms. ROLAND. Thank you.
    Chairman SMITH. Thank you, Ms. Sewell. And given the time 
constraints, we are going to do a 2 to 1 ratio. Next up is Mr. 
Reichert.
    Mr. REICHERT. Thanks, Mr. Chairman.
    Well, welcome, and thank you all for your testimony today, 
and especially thank you all for the hard work that you do.
    Jameela, you and I have a couple things in common. Did you 
know that? One is I lived on the street, too. I ran away when I 
was a senior in high school and lived in an old car. And so I 
think, you know, eventually you are going to be a 
congresswoman, so that is, you know----
    [Laughter.]
    Second--maybe not.
    Chairman SMITH. You may have higher aspirations as well.
    [Laughter.]
    Mr. REICHERT. Right. Maybe a senator. I don't know.
    Secondly, I come from the State of Washington, and I was 
the sheriff there. So we have a list of partners, and I was 
happy to see the King County Sheriff's offices on there as one 
of the partners. It is I think definitely a community effort, 
and the police--I spent 33 years there, and so I, you know, 
just saw about--just about everything that you could see. And I 
know how hard you had to work to get to where you are.
    But now the responsibility is not just about you; it is 
about all those friends that you talked about that are all 
excited. Now you can help share your success with them, right? 
And I know that you are going to do that because I can tell 
that by the energy that you have and your personality.
    So did you bring friends and family today that are 
supporting you, or are they supporting you from----
    Ms. ROLAND. Yeah. Everyone is supporting me from home. I 
came solo on this trip because it was a little last minute, but 
I am pretty sure everyone who is willing to be awake this early 
on west coast time is watching right now.
    [Laughter.]
    Mr. REICHERT. Well, say, ``Hi, Mom.''
    Ms. ROLAND. Hi, Mom.
    [Laughter.]
    Mr. REICHERT. So here is the bottom line. We can--you know, 
the stats are good. I really like the way that all of you are 
approaching, you know, your each individual piece of this, and 
collecting the data is absolutely critical to success in 
figuring out which programs work. The Federal Government--like 
I have been here--this is my 13th year here, and I still can't 
figure out how the heck they do things, and it is just--it is 
complicated, it is convoluted, it is sometimes not based on 
fact, it is based on politics. My belief is the best work is 
coming from all of you. You are in the trenches, and you are 
working with people that are day in and day out knocking on 
your door, and you know the best ways to reach people.
    When we talk about, Mr. Manuel, 2,500 in Chicago per year 
that don't graduate, and we talk about these disconnected 
youth, and we need to have these programs to reach these young 
people. We are losing smart, young people every day. How do 
we--my question is, and maybe, you know, your organizations 
haven't delved that deeply into it yet, but how do we prevent 
the disconnect from happening in the first place? I mean, that 
is really the question that we need to ask.
    Prevention, of course, in law enforcement is our number one 
goal, to prevent crime and keep people safe from crime before 
it even happens. So does anyone--I am going to ask the entire 
panel this question. What are we going to do to stop this 
disconnect in the first place? What are we doing? How can we 
work to help young people start out with a strong foundation to 
begin with? What is the answer to that one? That is the million 
dollar question.
    Mr. CHERTAVIAN. I know this isn't an education committee, 
but humbly I think if we can do a couple of things, first of 
which is ensure our children are ready to read when they get to 
school, probably one of the best things we can do for our 
children in this country.
    The second is we talk about high school. When we know that 
50 percent of every college-goer in America today works full-
time, we have to ensure you leave high school knowing how to 
work as well as how to consume postsecondary education. And we 
talk about career readiness in the United States, but there 
aren't standards and assessments that actually drive someone 
being employable. And what happens is you have graduated high 
school, you don't have those skills, you are working 80 hours 
to just get by, college, postsecondary, is a dream.
    So I think there is a lot we can do in high school, not 
only dropout prevention but proper preparation for the world of 
today, coupled with early childhood literacy, kind of a barbell 
structure, could be effective.
    Mr. REICHERT. Mr. Manuel.
    Mr. MANUEL. Thank you. The approach that we are trying to 
go into is both a combination of prevention and intervention, 
because there is a reason that a lot of----
    Mr. REICHERT. Families?
    Mr. MANUEL. Yes. We work with the--we are getting to that 
point where we are working with the families because a lot of 
those youth, as I stated earlier, their parents may have been 
incarcerated, their parents may have been unemployed, and so we 
want to try to break that cycle.
    Mr. REICHERT. There you go.
    Mr. MANUEL. The other thing that we look at is trauma. We 
use a trauma-based approach in working with the youth. But not 
only the youth, the staff that work with our youth. We do 
realize that it takes a toll on the staff dealing and being 
faced with all of the different trauma, the events that these 
youth bring to them on a daily basis.
    And so monthly we take the staff through vicarious trauma, 
and so we give them an outlet. And so then they are refreshed 
and able to go and meet with those youth and then talk to those 
families again.
    Mr. REICHERT. Thank you.
    Mr. Chairman, if I may indulge just one quick question. 
Jameela, what high school did you go to?
    Ms. ROLAND. I graduated from Federal Way High School.
    Mr. REICHERT. Federal Way High School.
    Ms. ROLAND. Yes.
    Mr. REICHERT. Go----
    Ms. ROLAND. Go Eagles.
    Mr. REICHERT. Yes.
    [Laughter.]
    Chairman SMITH. All right. Thank you. Next up will be Mr. 
Bishop, followed by Ms. Chu and Mr. Curbelo. Mr. Bishop.
    Mr. BISHOP. Thank you, Mr. Chairman, and thank you to the 
Committee, and thank you to the panel. It is a great 
discussion. I wish we had more time.
    Mr. Chertavian, thank you for what you do. It is amazing 
what we can do when we operate in such a logical way. I really 
do appreciate the way you have approached this and the way you 
present this because it is very logical. I am thrilled to see 
Ms. Roland and how well you are doing.
    I am wondering, what percentage of your graduates--I don't 
know, maybe we should call them those that have succeeded 
through your system--are actually employed? How many actually 
get a job and matriculate through the system?
    Mr. CHERTAVIAN. Sure. So 91 percent of our graduates within 
4 months, and we have a very clear window that comes down, will 
be full-time employed. A small percentage are going to college 
full-time and working part-time. But 91 percent of those 
graduates; average wage is $38,000 per year, immediate 
taxpayers for this country.
    Mr. BISHOP. Amazing. Excellent.
    Ms. Roland, when you finished with the program and you 
found your job at Microsoft, did you have to relocate? And how 
did you make ends meet in between, in your transition period? 
Where did you live, and how did that work?
    Ms. ROLAND. So I didn't have to relocate. I live in Federal 
Way still, and I commute to Redmond every day. Not for long, 
hopefully. And with employment, I was hired directly after my 
internship with no gaps because they needed me. So I didn't 
really have much of a transition from being a student intern to 
an employee.
    Mr. BISHOP. That is great. Good.
    And, Mr. Chertavian, do you help with it? Does the program 
help with transition period type stuff, relocation and gas?
    Mr. CHERTAVIAN. Absolutely. In fact, you know, our only 
outcome we focus on is that young person to get the W-2 that 
grows over time. So whatever we need to do to ensure that 
happens.
    We also have now, you know, 11,000 graduates. We will have 
30,000 grads in the next 5 years. We have a whole alumni 
association across the country. So if you needed additional 
financial literacy support now that you are getting a mortgage 
or a car, if you--we have an EAP program for graduates, 
employee assistance program. If they had a crisis that could 
come up, additional college counseling, to say, ``How do I 
finish that degree?''
    Through Year Up, you get 1 year of the degree under your 
belt. How do I finish that now that I am gainfully employed? So 
we have a national alumni association across the whole country 
that is very scalable and very cost effective because it is 
accessed through Skype and, you know, is a very easy means as 
opposed to trying to replicate that in 21 locations in America.
    Mr. BISHOP. Thank you.
    Mr. Manuel, I was involved--I am from the Michigan, 
Detroit, area. I was involved in Covenant House, which is a 
very similar organization to the organization that you are 
with, and I can tell that our mission is very simple--very 
similar. How do you--and when you are out there, you are 
looking for that demographic of folks that you are focusing on. 
How do you attract them? What gets them into the program?
    They have probably known about it. They have tried 
different programs. What brings them into your program? How do 
you reach out and grab them and pull them in?
    Mr. MANUEL. Well, a big part of our recruitment, I should 
say, is their peers. And so we allow their peers to have an 
opportunity to be able to talk and recruit and talk about some 
of the things that they have experienced, because it is 
easily--we can lay everything out, have a conversation about 
the internships, what it means to have a high school diploma. 
But if that is not a practice that they are used to, or that 
the family has embraced, then they are not going to buy into 
it.
    And so we try to set up what we call a trial period, a 
pending period, so we allow that youth to be able to come into 
the school, experience everything that any other student would 
experience, and then that decision is made by that youth to see 
if that is a fit for them. We are not schools that feel as 
though we want the elite youth.
    We make sure that our recruiters, whether it is the youth 
or paid staff, that they go into those areas that no one would 
ideally go into, to try to bring those youth back off the 
streets, enroll them back into school, and letting them know 
that they do have a promising future.
    Mr. BISHOP. Interesting. I know that the two missions are 
the same, the organization that I was speaking of, the Covenant 
House, and if we could get all of the organizations together 
and figure out how to reach out and to really connect with 
these--the youth out there, I think it would make a big 
difference if we could do that.
    Thank you all very much, and I yield back.
    Chairman SMITH. Thank you.
    Next up, Ms. Chu, followed by Mr. Curbelo. Ms. Chu.
    Ms. CHU. Mr. Chertavian, your program is so impressive, 
and, Jameela Roland, your story is so inspirational. And, Mr. 
Chertavian, your program incorporates so many different 
approaches to helping youth and young adults gain the skills 
that they need, including training, mentoring, and providing 
internships with private sector employers.
    And, in your testimony, you stated that education and 
training systems are increasingly out of touch with employers' 
needs and out of reach for young adults. You also indicated 
that you would like to see assistance programs such as TANF and 
the social services block grant more closely aligned with the 
demands of the labor market.
    TANF, for example, puts States at risk of Federal penalties 
if they enroll too many people in programs that combine job 
training with work. And, in many cases, programs like yours 
that produce successful outcomes do indeed try to align them.
    So, in your opinion, what would be an ideal form of TANF 
that would allow for greater employability for good middle 
class jobs for young people?
    Mr. CHERTAVIAN. Thank you for the question. I think what we 
see is funding programs to try to help someone we know isn't 
working. So if we say to the folks who are in the business of 
training talent, actually, we will pay you upon a result, 
right, when you achieve milestones. So the incentive has to be 
based on that outcome I think, first and foremost.
    For the individual, as Jameela said, we started with, where 
is she right now as we met her at the door, right? What was her 
personal situation? How do we help her? If she needed to get a 
part-time job in addition to what we are doing in training, 
that is great. If she needed some assistance, you mentioned 
before on transportation to get to that internship, how would 
we be thoughtful about doing that?
    So we are flexible around the human being and what their 
needs are, and that often is harder to implement in a program 
that has very rigid requirements as to who you can serve, do 
they lose certain benefits if they are gaining certain 
benefits.
    So we would increase flexibility for sure, have the 
incentives follow the outcomes we want primarily, and I think 
you have to start with the employer and work backward as to 
what the employer needs, which is skilled talent. And if they 
are happy--I mean, you have to imagine, employers are 
contributing $25,000 per Year Up intern to gain access to 
talent. They would never do that unless it was in their 
economic interest.
    We know employers are craving talent that is loyal. Our 
folks stay 3 to 4 times longer than the average employee. So 
companies are seeing this as a better source of talent. So it 
is really understanding, what does the employer need? They have 
the money to augment the investment the Federal Government 
makes and to lever, leverage the Federal investment through the 
corporate need. I think we could do quite a lot there, to use 
TANF as a lever, but expect corporations to have skin in the 
game as well, because if they don't have skin in the game, they 
don't value what they are getting in terms of talent.
    Ms. CHU. So I like your idea of going backward and seeing 
what the employer needs. TANF has this limit of 1 year of 
education and training. Is that enough for employers in your 
experience?
    Mr. CHERTAVIAN. Yes. Yes, it is. One year is enough to get 
started. Many of our companies will say to us, ``We expect your 
graduate to continue to complete their education.'' In fact, 
American Express, they start at $37,500. AmEx will pay for them 
to complete their associate's degree. As soon as they complete 
it, they move to $55,000.
    So companies are increasingly getting in the business of 
education. We are seeing that all over the country. But if we 
can leverage, not pay for everything from the Federal 
Government, but encourage with incentives for the employee to 
do the right thing, I think we could get more from our Federal 
dollars in this space.
    Ms. CHU. And, Mr. Manuel, you mentioned in your testimony a 
number of challenges facing disconnected foster youth, such as 
mental illness and lack of parental support. And there is one 
reason why it is so important that we make sure that we don't 
make deep cuts to Medicaid, and that is that could undercut the 
health benefits for these youth who are struggling so much.
    If Medicaid were block granted, capped, or cut in such a 
way to make it more difficult for foster youth to access 
healthcare, how would that impact the youth and young people 
enrolled in your program? Especially those who need mental 
health services or substance abuse counseling or just basic 
healthcare.
    Mr. MANUEL. It would greatly impact because we have two 
different populations that we work with. One is youth in care 
who would--you know, while they are in care, they receive some 
health benefits while being in care. But a great majority of 
our youth are not in care, and so they need those health 
services to be able to address some diagnosed or misdiagnosed 
mental illnesses.
    We talk about the teen parents. They need the healthcare 
for themselves and for their children. So any bit of a cut to 
healthcare would greatly impact and--because a lot of those 
issues affect the youth from attending school. A lot of our 
youth, if their attendance drops, it is because of, you know, 
healthcare issues.
    Ms. CHU. Thank you.
    Chairman SMITH. Thank you, Ms. Chu.
    Next we have Mr. Curbelo, followed by Mr. Renacci. Mr. 
Curbelo.
    Mr. CURBELO. Mr. Chairman, thank you for this opportunity. 
Thank you for taking some time to focus on these 5.5 million 
young Americans, people who are so full of potential, yet have 
obviously given up hope because they are not employed and they 
are doing nothing to educate themselves to become employable.
    So I think this is a wonderful opportunity, and it says a 
lot about this Subcommittee, about Ways and Means, and about 
how Republicans and Democrats can work together.
    And thank you to all of the witnesses, especially to the 
superstar, Jameela. I want to ask you a question because I 
think a lot about the messages we send children in this 
country, and as they grow up and become adolescents, that 
message I think gets reemphasized. You mentioned that you 
immediately wrote off Year Up because you felt like a college 
degree was the only path to success. Can you talk a little bit 
about why you felt that way and what helped you realize that 
wasn't the case?
    Ms. ROLAND. So pretty much the dialogue from sophomore year 
of high school onward is, after you finish high school, you 
have to go get a college degree, so you can get a job, buy a 
house, be successful. And the only alternatives that were 
pretty much offered up were you can either join a trade school, 
learn to be a carpenter or a nurse, or you can join the 
military.
    None of those really appealed to me, so I was like, okay, I 
will go to college, learn something. And after years of--I have 
gone to college, three different colleges, three different 
programs, and they just never really worked out because there 
were external factors that meant that I couldn't give it the 
focus I needed, or just I didn't know what I was supposed to do 
next, and I didn't really know who to ask or how to ask for it.
    And so a lot of the times when the only options you have 
are, okay, just go to college, you don't really get any more 
information, more relevant information, on how to finish 
college, how to pay for college, what is needed to make sure 
you are successful. You just get the whole ``go for it.''
    Mr. CURBELO. So, Mr. Chertavian, do you think that we, the 
government, are complicit in trapping a lot of young people 
into believing that only by getting a traditional college 
degree they can be successful? Do we also send those messages 
in the way we invest public dollars and in the messages we 
send?
    Mr. CHERTAVIAN. Yes. We do, unfortunately, reinforce that 
belief system. In part, we think about how Pell grants flow. 
Yeah, you have to be going how many credits before you get 
access to a Pell grant? The average age of a bachelor of arts 
in America is 28 years old. That means you are probably doing 
it part-time, so that gives up your Pell eligibility.
    Even to get financial aid, I could not complete the forms 
for our students. You know, I didn't know how to do it. So just 
the ease with which one can access that; also the expectation. 
If we changed the word to ``postsecondary'' for all, and truly 
believed in valued multiple pathways into the mainstream, we 
could fundamentally I think change this country in a powerful 
way. But the word ``college'' assumes 4-year, fixed-term, 
residential. That is only 8 out of 100 adults in America have a 
4-year degree that they got between the ages of 18 and 22; 92 
adults of 100 do not have a BA that they got between the ages 
of 18 and 22.
    And often, to the folks thinking about policy, what was our 
lived experience? And is that with which we are creating the 
idea of what we want? As opposed to 92 out of 100 Americans 
don't do 4 years between 18 and 22.
    Mr. CURBELO. And yet we disproportionately fund that----
    Mr. CHERTAVIAN. Correct.
    Mr. CURBELO [continuing]. Eight out of 100, you said?
    Mr. CHERTAVIAN. That is correct.
    Mr. CURBELO. Eight percent.
    Mr. CHERTAVIAN. Right.
    Mr. CURBELO. Ms. Oldham, do you have any ideas as to how we 
can send the message that there are other ways to becoming a 
successful citizen in our country? Perhaps in the way we 
allocate resources, perhaps by making some of our policies more 
flexible?
    Ms. OLDHAM. Right. Thank you. I think, absolutely, and I 
would echo what Gerald said. I think one of the most important 
things we can do is provide information. I mean, the comment 
about, you know, the message from sophomore year on was 
college, college, college, I mean, our K through 12 system and 
our high schools, the people that are giving that information 
don't know employers, don't know careers, don't know what is 
available, what are the growing jobs in that region, who is 
hiring.
    There is a really robust conversation I think now taking 
place after the passage of the Every Student Succeeds Act, and 
all States are really struggling with, what is career 
readiness, and how do we measure it, and what do we do in high 
schools to ensure that we are really looking at that.
    And that career development piece is critical, and there 
is, obviously, a real issue with, you know, stretching thin of 
sort of counselors and high school and that kind of thing, but 
really thinking about a career development focus and providing 
that information and really good data about what the successful 
pathways are for young people, so they can make better 
decisions.
    Mr. CURBELO. Thank you, Ms. Oldham.
    Thank you, Mr. Chairman.
    Chairman SMITH. Thank you. And wrapping up is Mr. Renacci.
    Mr. RENACCI. Thank you, Mr. Chairman. I want to thank the 
witnesses. I appreciate, Mr. Chairman, you allowing me to be 
here, even though I am not on the Subcommittee, because this is 
really an issue for me that is very passionate.
    I started a program in Cleveland, Ohio, called Opportunity 
Cleveland where we are looking at youth from age 14 to 24. So I 
love to hear these stories because I think the theme--and it is 
always good to be the last person--here is what I got out of 
what I have listened to, and I hope I have a message.
    First off, high school education or a GED is vitally 
important because, Ms. Oldham, as you say in your testimony, 
there are a quarter of Americans with no high school diploma 
who live in poverty. And I will bet you that a majority of 
Americans without high school diplomas do not have a good-
paying job. So that is one thing.
    The second thing is we have to break the cycle of poverty. 
I think that is extremely important. And the third is that a 4-
year degree does not always make sense. And, Ms. Roland, you 
are a witness to that.
    So I have said all along that the answer--and I am trying 
to figure out how to get there--is we have to go back and look 
at the high schools, and we have to look at skill sets versus 
test sets. And you will hear me say that all the time back in 
Ohio. How do we take youth that are going through high school 
and make sure that they are looking at skill sets and 
opportunities early on?
    I came from a very poor family, and the only thing that 
helped me is, number 1, I had mentors, and I had job 
opportunities, and I saw skill sets in high school that said I 
can be a plumber, I can be anything I want to be. We lack that.
    I was at a high school recently, 1,300 students, and only 
30 were going to technical school. That tells you something 
right there; 30 out of 1,300. Because, as I have heard some of 
my colleagues say, we are putting all our resources toward you 
have to go to college. And the answer is, you have to get a 
skill set. And sometimes a skill set doesn't mean going to 
college.
    So it is interesting that you can be a plumber and own your 
own company and make a lot more money than somebody who goes to 
college. Or you can graduate in Ohio with a degree and make 
$25- to $30,000, or go become a welder and make $75,000. I 
mean, these are the opportunities that we need to talk about 
early on.
    So I appreciate that. I am assuming you are all agreeing 
that these are some of the issues, but I guess my question is, 
how do we change it? How do we fix this? And what can we do as 
Federal legislators to change the system? Because it sounds 
like, what I just said, you are all talking about our problems. 
So how do we fix it? I did hear--and tell me--maybe we need to 
redirect resources. Maybe the Pell grant issue drives people to 
college versus high school. Any thoughts from any of the 
panelists?
    Ms. OLDHAM. Yes. No, thank you. Absolutely, I think there 
are some things in terms of redirecting resources. I think 
really, I mean, we have talked a little bit about this, but how 
do we focus on outcomes in the programs that you do fund and 
really measure? We value what we measure; we measure what we 
value. And instead of really focusing on the inputs, focusing 
on the outcomes, and what are those important outcomes? Do you 
have a job? Do you have a sustaining wage? And what are the 
programs that are leading young people into those paths? And 
get rid of the ones that don't.
    Mr. RENACCI. Sure.
    Ms. Roland, it sounded like you found your way after high 
school. I almost want to think back, in high school, did you 
think you were missing something, you didn't see it? I mean, I 
hate to pick on your high school because I do think what we 
have done in high schools is we have directed everybody to 
college as well.
    Ms. ROLAND. It did take me a long time after high school to 
kind of figure out that kind of I didn't really know what I was 
doing. I thought I knew what I was doing because I did what 
they told me I should, and that was aspire to college, apply, 
do what you can to get into college and get a degree.
    But I didn't really know what the realities of that really 
entailed, like financial aid, filling out all of the paperwork, 
getting loans. I have gotten some terrible student loans 
before. So a lot of it is knowing exactly what the expectations 
of life are, really, and then being able to find opportunities 
to get to where you want to be with knowing those expectations.
    Mr. RENACCI. Mr. Chertavian, your program actually gave me 
the thought that some of that could be done in a high school.
    Mr. CHERTAVIAN. Yes.
    Mr. RENACCI. And you are really the subset after high 
school, and you are doing some of the things we could do.
    Mr. CHERTAVIAN. Yeah. I think it is fair to say that Year 
Up exists because of systemic failure elsewhere. I think that 
is, you know, broadly true.
    So what we really want is high school students having the 
guidance and the counseling that they need, as you expressed, 
Jameela, to understand there is not one pathway, whether it is 
a good trade in vocation, whether it is a 2-year degree, to 
perhaps then go to a 4-year degree, whether it is straight into 
4-year, whether it is working and getting stable first, so that 
you can consume higher ed.
    We don't value multiple pathways in this country. It is 
almost culturally seen as a stepchild if you don't do the 
accepted rhetoric of 4 years, and it is up to us to think about 
how we are incenting that with even just how Pell grants flow.
    When you think of Year Up not having an access to Pell 
grants in our core program, yet we probably produce good 
results for this country. So how restrictive are some of those 
funding sources that could actually be directed to things that 
have verifiable results for young people?
    Mr. RENACCI. I had one person--and I know I am running out 
of time, or I have probably ran out--one last question. I had 
an individual back in my district say to me, ``You know what? 
High school kids should just go to school until 2:00, and then 
they should have three paths between 2:00 and 5:00. They should 
either go to a work opportunity where they learn a skill set, 
they should go and become part of an athletic program where 
they learn teamwork, you know, or the third thing is that they 
get an educational skill set as well.''
    So I don't know if anybody--I mean, I thought that was 
pretty interesting, that, you know, we fail because that high 
school student doesn't have those paths of opportunity after 
their basic education.
    Thank you. I yield back.
    Chairman SMITH. Thank you, Mr. Renacci.
    I want to say thanks to everyone on our panel. Again, thank 
you for sharing your story, Jameela, and all of you for sharing 
your insight and expertise. And those of you also in the 
gallery, so to speak, thank you for taking your time to be here 
and participate today.
    Please be advised that Members will have 2 weeks to submit 
written questions to be answered later in writing. Those 
questions, and your answers, will be made part of the formal 
hearing record.
    With that, the Subcommittee stands adjourned.
    [Whereupon, at 11:25 a.m., the Subcommittee was adjourned.]
    [Submissions for the Record follow:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
